Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




     MINNESOTA STATE
 MEDICAID FRAUD CONTROL
 UNIT: 2013 ONSITE REVIEW




                         Brian P. Ritchie
                 Acting Deputy Inspector General
                  for Evaluation and Inspections

                         March 2014
                        OEI-06-13-00200
EXECUTIVE SUMMARY – MINNESOTA STATE MEDICAID FRAUD CONTROL UNIT:
2013 ONSITE REVIEW
OEI-06-12-00200

WHY WE DID THIS STUDY
The Office of Inspector General (OIG) oversees the activities of all Medicaid Fraud Control
Units (MFCUs or Units). As part of this oversight, OIG conducts periodic reviews of all Units
and prepares public reports based on these reviews. The reviews assess Unit performance in
accordance with the 12 MFCU performance standards and monitor Unit compliance with Federal
grant requirements.

HOW WE DID THIS STUDY
We based our review on an analysis of data from seven sources: (1) a review of policies,
procedures and documentation of the Unit’s operations, staffing, and caseload; (2) a review of
financial documentation; (3) structured interviews with key stakeholders; (4) a survey of Unit
staff; (5) structured interviews with the Unit Director and supervisors; (6) an onsite review of
case files; and (7) an onsite review of Unit operations conducted in April 2013.

WHAT WE FOUND
For fiscal years (FYs) 2010 through 2012, the Minnesota Unit obtained 62 criminal convictions
and 59 civil settlements, and reported recoveries of over $64 million. Our review of compliance
issues found no evidence of significant noncompliance with applicable laws, regulations, or
policy transmittals. However, we found that the Unit’s memorandum of understanding (MOU)
with the State Medicaid agency did not reflect all current processes. In addition, the Unit’s
training plan did not include a minimum number of training hours. We also found that some
Unit case files lacked documentation of supervisory approval and periodic review. Finally, the
Unit stored some case files in a location accessible to non-Unit staff.

WHAT WE RECOMMEND
We recommend that the Minnesota Unit (1) update its MOU with the State Medicaid agency;
(2) establish training hour requirements for each professional discipline; (3) include notation of
supervisory approval and periodic supervisory review in all case files; and (4) secure case files.
The Unit concurred with all four of our recommendations.
TABLE OF CONTENTS
Objective ..................................................................................................................1 

Background ..............................................................................................................1 

Methodology ............................................................................................................4 

Findings....................................................................................................................7 

           For FYs 2010 through 2012, the Minnesota Unit obtained 62 criminal 

           convictions and 59 civil settlements, and reported recoveries of over                                                     

           $64 million ...................................................................................................7 

           The Unit’s MOU with the State Medicaid agency did not reflect all
           current processes..........................................................................................8 

           The Unit’s training plan did not include a minimum number of training 

           hours.............................................................................................................8

           Some Unit case files lacked documentation of supervisory reviews
           and approvals ...............................................................................................9 

           The Unit stored some case files in a location accessible to non-Unit                                             

           staff ..............................................................................................................9 

           Other observation: The Unit helped to pass legislation that strengthens 

           background checks for guardians and conservators of Medicaid 

           beneficiaries ...............................................................................................10 

           Other observation: The Unit does not issue mobile phones to its 

           investigators ...............................................................................................10 

Conclusion and Recommendations ........................................................................11

           Unit Comments and Office of Inspector General Response ......................12 

Appendixes ............................................................................................................13 

           A: 	1994 Performance Standards ...............................................................13 

           B: 	2012 Performance Standards................................................................17 

           C: 	Point Estimates and Confidence Intervals Based on 

               Review of Case Files ...........................................................................24 

           D: Unit Comments ....................................................................................25 

Acknowledgments..................................................................................................27

                  OBJECTIVE
                  To conduct an onsite review of the Minnesota State Medicaid Fraud
                  Control Unit (MFCU or Unit).

                  BACKGROUND
                  The mission of State MFCUs, as established by Federal statute, is to
                  investigate fraud and patient abuse and neglect by Medicaid providers and
                  to prosecute it under State law.1 Pursuant to Title XIX of the Social
                  Security Act (SSA), each State must maintain a certified Unit unless the
                  Secretary of Health and Human Services determines that operation of a
                  Unit would not be cost-effective because (1) minimal Medicaid fraud
                  exists in that State and (2) the State has other, adequate safeguards to
                  protect Medicaid beneficiaries from abuse and neglect.2 Currently,
                  49 States and the District of Columbia (States) have created such Units.3
                  In Federal fiscal year (FY) 2012, combined Federal and State grant
                  expenditures for the Units totaled $217.4 million.4
                  To carry out its duties and responsibilities in an effective and efficient
                  manner, each Unit must employ an interdisciplinary staff that consists of
                  at least an investigator, an auditor, and an attorney.5 Unit staff review
                  complaints provided by the State Medicaid agency and other sources and
                  determine their potential for criminal prosecution and/or civil action. In
                  FY 2012, the 50 Units collectively reported 1,337 convictions, 823 civil
                  settlements or judgments, and recoveries of approximately $2.9 billion.6, 7
                  Units are required to have either Statewide authority to prosecute cases or
                  formal procedures to refer suspected criminal violations to an office with


                  1
                    Social Security Act (SSA) § 1903(q)(3).

                  2
                    Ibid., §§ 1902(a)(61) and 1903(q)(3). Regulations at 42 CFR § 1007.11(b)(1) add that 

                  the Unit’s responsibilities may include reviewing complaints of misappropriation of

                  patients’ private funds in residential health care facilities. 

                  3
                    Office of Inspector General (OIG) Medicaid Fraud Control Units. Accessed at 

                  http://oig.hhs.gov/fraud/medicaid-fraud-control-units-mfcu/index.asp on May 22, 2013. 

                  4
                    OIG, State Medicaid Fraud Control Units Fiscal Year 2012 Grant Expenditures and 

                  Statistics. Accessed at https://oig.hhs.gov/fraud/medicaid-fraud-control-units-
                  mfcu/expenditures_statistics/fy2012-statistical-chart.htm on March 8, 2013. 

                  5
                    SSA § 1903(q)(6) and 42 CFR § 1007.13.

                  6
                    OIG, State Medicaid Fraud Control Units Fiscal Year 2012 Grant Expenditures and 

                  Statistics. Accessed at http://oig.hhs.gov/fraud/medicaid-fraud-control-units-mfcu/ on
                  April 16, 2012.
                  7
                    Ibid. Recoveries are defined as the amount of money that defendants are required to
                  pay as a result of a settlement, judgment, or pre-filing settlement in criminal and civil
                  cases and may not reflect actual collections. Recoveries may involve cases that include
                  participation by other Federal and State agencies.


Minnesota State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-13-00200)                         1
                  such authority.8 If the Unit is located in a State that does not have an
                  entity with statewide prosecutorial-authority, the Unit must have formal
                  procedures approved by OIG to ensure that cases are referred to State
                  entities with criminal prosecutorial authority and ensure that the State
                  entities cooperate with the Unit.9 In 44 States and the District of
                  Columbia, the Units are located within offices of State Attorneys General;
                  in 6 States, the Units are located in other State agencies.10 Each Unit must
                  be a single, identifiable entity of State government, distinct from the single
                  State Medicaid agency, and must develop a formal agreement (i.e.,
                  Memorandum of Understanding (MOU) that describes its relationship
                  with that agency.11
                  Oversight of the MFCU Program
                  The Secretary of HHS delegated to OIG the authority to annually certify the
                  Units and to administer grant awards to reimburse States for a percentage of
                  their costs of operating certified Units.12 All Units are currently federally
                  funded on a 75-percent matching basis, with the States contributing the
                  remaining 25 percent.13 To receive Federal reimbursement, each Unit must
                  submit an application to OIG.14 OIG reviews the application and notifies the
                  Unit if it is approved and the Unit is certified. Approval and certification are
                  for a 1-year period; the Unit must be recertified each year thereafter.15
                  Pursuant to Title XIX of the SSA, States must operate Units that effectively
                  carry out their statutory functions and meet program requirements.16
                  OIG developed and issued 12 performance standards to define the criteria it
                  applies in assessing whether a Unit is effectively carrying out statutory




                  8
                    SSA § 1903(q)(1).
                  9
                    SSA § 1903(q)(1)(B).
                  10
                     OIG Medicaid Fraud Control Units. Accessed at http://oig.hhs.gov/fraud/medicaid-
                  fraud-control-units-mfcu/index.asp on May 21, 2013.
                  11
                     SSA § 1903(q)(2); 42 CFR §§ 1007.5 and 1007.9(d).
                  12
                     The portion of funds reimbursed to States by the Federal government for its share of
                  expenditures for the Federal Medicaid program, including the MFCUs, is called Federal
                  Financial Participation (FFP).
                  13
                     SSA § 1903(a)(6)(B).
                  14
                     42 CFR § 1007.15(a).
                  15
                     42 CFR § 1007.15(b) and (c).
                  16
                     SSA § 1902(a)(61).


Minnesota State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-13-00200)                           2
                  functions and meeting program requirements.17 Examples of criteria include
                  maintaining an adequate caseload through referrals from several sources,
                  maintaining an annual training plan for all professional disciplines, and
                  establishing policy and procedure manuals to reflect the Unit’s operations.
                  See Appendix A for a complete list of the 1994 performance standards and
                  Appendix B for a complete list of the 2012 performance standards.
                  Minnesota Medicaid Program
                  The Minnesota Medicaid program is located within the Minnesota
                  Department of Human Services. The Minnesota Medicaid program
                  provides services to over 885,000 Minnesotans, 68 percent of whom are
                  enrolled in managed care.18 Total Minnesota Medicaid expenditures for
                  FY 2012 were over $9 billion.19
                  Minnesota Unit
                  The Minnesota Unit is housed within the Minnesota Attorney General’s
                  Office (AGO), located in the State capital of St. Paul. The Unit expended
                  a total of $1.4 million in combined State and Federal funds for FY 2012.20
                  At the time of our April 2013 review, the Unit employed 13 staff members
                  including a director, 4 attorneys, 4 investigators, 1 investigative auditor,
                  and 3 support staff. During FY 2010 through FY 2012, provider fraud
                  represented 87 percent of the Unit’s open cases; the remaining 13 percent
                  involved cases of patient abuse and neglect, including cases of theft of
                  patient funds. The Unit has authority to prosecute Medicaid fraud cases,
                  but does not have original jurisdiction to prosecute abuse and neglect
                  cases.21 However, county attorneys with original jurisdiction may choose
                  to refer cases back to the Unit for prosecution.




                  17
                     77 Fed Reg. 32645 (June 1, 2012). Accessed at http://oig.hhs.gov/authorities/docs/
                  2012/PerformanceStandardsFinal060112.pdf on August 15, 2012. Previous performance
                  standards established in 1994 are found at 59 Fed. Reg. 49080 (Sept. 26, 1994).
                  Accessed at http://oig.hhs.gov/fraud/medicaid-fraud-control-units-mfcu/files/
                  Performance%20Standards.pdf on August 15, 2013.
                  18
                     Mecdicaid.gov Minnesota Medicaid Statistics. Accessed at http://www.medicaid.gov/
                  medicaid-chip-program-information/by-state/minnesota.html on June 10, 2003.
                  19
                     MFCU Statistical Data for FY 2011. Accessed at https://oig.hhs.gov/fraud/medicaid-
                  fraud-control-units-mfcu/ on January 13, 2014.
                  20
                      OIG, State Medicaid Fraud Control Units Fiscal Year 2012 Grant Expenditures and
                  Statistics. Accessed at https://oig.hhs.gov/fraud/medicaid-fraud-control-units-
                  mfcu/expenditures_statistics/fy2012-statistical-chart.htm on March 8, 2013.
                  21
                     Minnesota Statute 388.051 provides county attorneys with original jurisdiction for
                  prosecution of all crimes in Minnesota, unless specifically provided elsewhere.
                  Minnesota Statute 256B.21 provides the Unit with original jurisdiction in Medicaid fraud
                  cases.


Minnesota State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-13-00200)                        3
                  Previous Review
                  In 2007, OIG conducted an onsite review of the Minnesota Unit. In that
                  review, OIG found that the investigative case files lacked consistency and
                  that the Unit did not have standardized policies and procedures in place for
                  the creation and maintenance of investigative case files.22 The review also
                  found that Unit investigators had a high average of open cases (18 cases
                  per investigator), making it difficult to effectively and efficiently manage
                  the investigative process.

                  METHODOLOGY
                  We based the review on an analysis of data from seven sources:
                  (1) a review of policies, procedures, and documentation of the Unit’s
                  operations, staffing, and caseload; (2) a review of financial
                  documentation; (3) structured interviews with key stakeholders;
                  (4) a survey of Unit staff; (5) structured interviews with the Unit’s
                  Director and supervisors; (6) an onsite review of case files that were open
                  in FYs 2010 through 2012; and (7) an onsite review of Unit operations in
                  April 2013. We analyzed data from all seven sources to describe the
                  caseload; assess the performance of the Unit; identify any opportunities
                  for improvement; and identify any instances in which the Unit did not
                  fully meet the performance standards or was not operating in accordance
                  with laws, regulations, and policy transmittals.23 In addition, we noted any
                  practices that appeared to benefit the Unit. We based these observations
                  on statements from Unit staff, data analysis, and our own judgment. We
                  did not independently verify the effectiveness of these practices, but
                  included the information because it may be useful to other Units in their
                  operations.
                  Data Collection and Analysis
                  Review of Unit Documentation. We reviewed policies, procedures, and
                  documentation of the Unit’s operations, staffing, and cases, including its
                  annual reports, quarterly statistical reports, and responses to recertification
                  questionnaires.
                  Review of Financial Documentation. We reviewed Unit financial
                  practices to determine compliance with applicable laws and regulations
                  and to determine the need for additional internal controls. Prior to the
                  onsite review, we reviewed the Unit’s financial policies and procedures,
                  its response to an internal control questionnaire, and MFCU grant-related

                  22
                     OIG issued the 2007 review directly to the Unit and did not make the review publicly
                  available. 

                  23
                     All relevant regulations, statutes, and policy transmittals are available online at 

                  http://oig.hhs.gov. 



Minnesota State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-13-00200)                            4
                  documents such as financial status reports. During the onsite review, we
                  reviewed a sample of the Unit’s purchase and travel transactions. In
                  addition, we reviewed a sample of time and effort records.
                  Interviews with Key Stakeholders. We conducted structured interviews
                  with key stakeholders who were familiar with the Unit operations.
                  Specifically, we interviewed staff from the Minnesota Department of
                  Human Services, Medicaid Program Integrity Unit (hereinafter referred to
                  as the State Medicaid agency); the Minnesota Department of Human
                  Services, Office of Long Term Care; an HHS OIG investigator who
                  worked closely with the Unit during the review period; three of the four
                  largest managed care organizations that operate in Minnesota (Blue Cross
                  Blue Shield, Health Partners, and UCare); and an Assistant United States
                  Attorney. These interviews focused on the Unit’s interaction with external
                  agencies.
                  Survey of Unit Staff. We administered an electronic survey to
                  nonmanagerial Unit staff. Our questions focused on operations,
                  opportunities for improvement, and effective practices.
                  Interviews with Unit Management and Staff. We conducted structured
                  interviews with the Assistant Attorney General (who serves as the Unit
                  Director and Chief Attorney), the Deputy Attorney General, the Chief
                  Investigator, and the Chief Auditor. We asked respondents to provide any
                  additional information to better illustrate the Unit’s operations, identify
                  opportunities for improvement and effective practices, and clarify
                  information we obtained from other data sources.
                  Onsite Review of Case Files. We selected a statistically valid, simple
                  random sample of 100 case files from the 267 cases open at some point
                  during FYs 2010 through 2012. We reviewed all 100 of these sampled
                  case files for the following issues: documentation of supervisory approval
                  for the opening and closing of cases; periodic supervisory reviews,
                  timeliness of case development; and the Unit’s processes for monitoring
                  the status and outcomes of cases. From these 100 case files, we selected a
                  further random sample of 50 files for a more in-depth review of issues,
                  such as the appropriateness and timeliness of investigations. See
                  Appendix C for point estimates and corresponding 95-percent confidence
                  intervals.
                  Onsite Review of Unit Operations. We reviewed the Unit’s operations
                  during our onsite visit. Specifically, we reviewed the process for
                  receiving referrals, electronic case management, security of case files, and
                  general functioning of the Unit.




Minnesota State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-13-00200)            5
                  Standards
                  This study was conducted in accordance with the Quality Standards for
                  Inspection and Evaluation issued by the Council of the Inspectors General
                  on Integrity and Efficiency.




Minnesota State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-13-00200)         6
                  FINDINGS

                  For FYs 2010 through 2012, the Minnesota Unit
                  obtained 62 criminal convictions and 59 civil
                  settlements, and reported recoveries of over
                  $64 million
                  For FYs 2010 through 2012, the Unit filed criminal charges against
                  74 defendants and obtained 62 criminal convictions. Nearly 80 percent of
                  these convictions involved provider fraud; the remaining 20 percent
                  involved patient abuse and neglect, including theft of patient funds. The
                  Unit was awarded nearly $3 million in criminal recoveries. See
                  Table 1.
                  Table 1: Unit Criminal Charges, Convictions, and Ordered Recoveries,
                  FYs 2010–2012

                    Criminal Investigations                                         Charges                        Convictions

                    Fraud                                                                  60                                    49

                    Patient Abuse and Neglect                                                4                                   4

                    Theft of Patient Funds                                                 10                                    9

                       Total                                                               74                                    62

                    Criminal Recoveries Ordered                                                                     $2,976,780*
                  Source: OIG analysis of Unit data and quarterly statistical reports, FYs 2010–2012. 

                  *Unit criminal recoveries ordered were $856,490 in FY 2010, $347,641 in FY 2011, and $1,772,648 in FY 2012.


                  The Unit obtained 59 civil settlements, resulting in more than $61 million
                  in civil recoveries. Ninety-seven percent ($59 million) of settlements
                  were from “global” settlements.24 See Table 2.
                  Table 2: Unit Civil Recoveries, FYs 2010–2012
                                                                                                                          Total
                    Recovery Type                       FY 2010              FY 2011                FY 2012
                                                                                                                     Recoveries
                    Global                         $23,101,825           $17,309,623             $18,839,389        $59,250,837

                    State Only                         $738,166             $370,146               $707,496          $1,815,808

                       Total                       $23,839,991           $17,679,769             $19,546,885        $61,066,645

                  Source: OIG analysis of Unit data and quarterly statistical reports, FYs 2010–2012.




                  24
                    “Global” settlements originate from civil false claims cases involving the
                  U.S. Department of Justice and other State MFCUs. The Federal Government often
                  represents multiple States in global settlements, but the $59 million is the portion owed to
                  Minnesota.


Minnesota State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-13-00200)                                                7
                  The Unit’s MOU with the State Medicaid agency did
                  not reflect all current processes
                  According to Performance Standard 10, the Unit should periodically
                  review its MOU with the State Medicaid agency to ensure that the MOU
                  reflects current law and practice. The Unit updated its MOU with the
                  State Medicaid agency in April 2012. However, the MOU did not include
                  language that addresses 42 CFR § 455.23, which requires payment
                  suspension of any provider against whom there is a credible allegation of
                  fraud (effective March 25, 2011).25 Despite the lack of payment
                  suspension language in the MOU, the Unit and the State Medicaid agency
                  have a documented process for suspending payments to providers against
                  whom there is a credible allegation of fraud. Since our onsite visit, the
                  Unit has modified its MOU with the State Medicaid agency to address
                  42 CFR § 455.23.

                  The Unit’s training plan did not include a minimum
                  number of training hours
                  Performance Standard 12 states that the Unit should maintain a training
                  plan that indicates an annual minimum number of training hours for each
                  professional discipline and should ensure that professional staff satisfy
                  continuing education standards. We found that the Unit had a training
                  plan for each professional discipline, but the plan did not specify a
                  minimum number of training hours. Nonetheless, Unit professional staff
                  satisfied continuing education standards by attending training on health
                  care, investigative issues, and legal issues sponsored by the Department of
                  Veterans Affairs, the National White Collar Crime Center, and legal
                  education entities.26 Since our onsite visit, the Unit has updated its
                  training plan to include an annual minimum number of training hours for
                  each professional discipline.




                  25
                     42 CFR § 455.23. Accessed at https://oig.hhs.gov/fraud/medicaid-fraud-control-units-
                  mfcu/45523.asp on June 12, 2013.
                  26
                     Although we reviewed training records, we did not evaluate each staff member’s
                  professional qualifications. Rather, we applied the performance standards to evaluate
                  whether the Unit maintained a formal training plan for each professional discipline and
                  assessed training opportunities specific to Unit operations. We recognize that attorneys,
                  investigators, and auditors receive professional and law enforcement training, and that the
                  lack of a minimum number of training hours does not suggest that professional staff are
                  unqualified.


Minnesota State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-13-00200)                          8
                  Some Unit case files lacked documentation of
                  supervisory reviews and approvals
                  Performance Standard 6 states that Unit supervisors should periodically
                  conduct reviews of ongoing investigations and should note the reviews in
                  the case file. During our onsite review, the Unit Director reported meeting
                  at least monthly with investigators and attorneys to discuss and review all
                  open case files and provided documentation of these reviews. However,
                  these supervisory reviews were not documented in 58 percent of the case
                  files that were open for longer than 30 days and instead were stored in the
                  Unit Director’s office. See Appendix C for point estimates and
                  corresponding 95-percent confidence intervals.
                  Performance Standard 6 also states that managers should approve the
                  opening and closing of cases, and the Unit’s policies and procedures state
                  that these approvals should be documented in case files. We found that
                  case files lacked documentation of supervisory approval for 19 percent of
                  case openings and 23 percent of case closings. The Unit Director
                  explained that there was supervisory approval for case openings and
                  closings in each case, but in some cases the Unit Director or Chief
                  Investigator did not sign the memo for the opening or closing. See
                  Appendix C for point estimates and corresponding 95-percent confidence
                  intervals.

                  The Unit stored some case files in a location
                  accessible to non-Unit staff
                  According to Performance Standard 1, the Unit should conform to all
                  applicable statutes, regulations, and policy transmittals. Federal
                  regulations and OIG policy require Units to prevent the misuse of
                  information under the Unit’s control by safeguarding the privacy rights of
                  witnesses, victims, and informants.27 During our onsite review, we
                  observed that some case files were stored in unlocked file cabinets in a
                  hallway that is inaccessible to the public, but in proximity to non-Unit
                  staff in the Minnesota Attorney General’s Office. Unit officials reported
                  that they promptly moved the file cabinets to a locked storage room
                  accessible only to Unit staff.




                  27
                     42 CFR § 1007.11(f); OIG State Fraud Policy Transmittal 99-02, Public Disclosure
                  Requests and Safeguarding of Privacy Rights (December 22, 1999).


Minnesota State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-13-00200)                       9
                  Other observation: The Unit helped to pass
                  legislation that strengthens background checks for
                  guardians and conservators of Medicaid beneficiaries
                  The Unit worked with two Minnesota Deputy Attorneys General to
                  research and draft legislation that strengthens Minnesota’s background
                  check processes for guardians (appointed persons who make personal
                  decisions for Medicaid beneficiaries) and conservators (appointed persons
                  who make financial decisions for Medicaid beneficiaries). Effective
                  May 2013, the expanded background checks include requirements that the
                  guardian or conservator must disclose things such as whether they have
                  ever been denied a professional license by the State, whether they have
                  ever filed for bankruptcy, or whether they have ever had a restraining
                  order filed against them. Additionally, the new legislation requires that
                  the court conduct background checks of guardians and conservators every
                  2 years rather than every 4 years.28

                  Other observation: The Unit does not issue mobile
                  phones to its investigators
                  Notably, the Unit does not issue mobile phones to Unit investigators for
                  use while in the field, as is standard among the other MFCUs and other
                  law enforcement offices. The Unit Director explained that the Unit’s
                  parent agency, the Minnesota AGO, also does not issue mobile phones to
                  any staff. Therefore, when conducting field investigations, Unit staff may
                  either use their personal mobile phones or the mobile phones of others,
                  such as OIG agents jointly investigating a case. When using personal
                  mobile phones, Unit staff call the Unit operator to route the call to the
                  appropriate individual using a State office phone number, thereby masking
                  the caller identification of the personal mobile phone.




                  28
                     Minnesota Statute 524.5-188. Accessed at https://www.revisor.mn.gov/
                  statutes/?id=524.5-118 on November 8, 2013.


Minnesota State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-13-00200)           10
                  CONCLUSION AND RECOMMENDATIONS
                  For FYs 2010 through 2012, the Minnesota Unit obtained 62 criminal
                  convictions and 59 civil settlements, and reported recoveries of over
                  $64 million. Unit staff reported working with the Minnesota Attorney
                  General to draft legislation that strengthened background checks for
                  guardians and conservators of Medicaid beneficiaries.
                  Our review of compliance issues found no evidence of significant
                  noncompliance with applicable laws or regulations. However, we found
                  four opportunities for improvement in the Unit’s adherence to the
                  performance standards. As a result, we recommend that the Minnesota
                  Unit:
                  Update its MOU with the State Medicaid Agency
                  The Unit should update its MOU with the State Medicaid agency to
                  include language that sufficiently addresses 42 CFR § 455.23 regarding
                  provider payment suspension.
                  Establish training hour requirements for each professional
                  discipline
                  The Unit should include an annual minimum number of training hours for
                  attorneys, auditors, director, and investigators in the Unit training plan.
                  Include notation of periodic supervisory reviews and approval
                  in all case files
                  The Unit should ensure that all appropriate documentation is located in the
                  case files. Specifically, supervisory reviews and supervisory approval for
                  opening and closing cases should be documented and located in the case
                  file.
                  Secure case files
                  The Unit should store all case files and other documentation containing
                  personally identifiable information in a locked room or in locked storage
                  cabinets.




Minnesota State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-13-00200)          11
                  UNIT COMMENTS AND OFFICE OF INSPECTOR GENERAL
                  RESPONSE
                  The Unit concurred with the four report recommendations.
                  Regarding the first recommendation, the Unit reported that it had long
                  utilized a documented process for suspending payments to providers
                  against whom there are credible allegations of fraud. The Unit reported
                  that it has updated its MOU with the Minnesota Department of Human
                  Services to reflect this process.
                  Regarding the second recommendation, the Unit explained that Unit
                  attorneys satisfy a minimum of 45 credit hours of professional training
                  every 3 years and that nonattorney Unit staff receive regular training from
                  a number of sources. The Unit reported that it has updated its training
                  plan to specify a minimum number of training hours that Unit
                  professionals must receive.
                  Regarding the third recommendation, the Unit explained that the Unit
                  Director regularly reviews the status of all open investigations. The Unit
                  reported that in the past, the Unit Director had maintained these records in
                  his office, but that following our onsite visit, he began placing a record of
                  reviews in case files. Additionally, the Unit reported that the Director has
                  begun documenting approval of case opening and closing in case files.
                  Regarding the fourth recommendation, the Unit reported that it has moved
                  the contents of file cabinets to locked rooms within the Unit office.
                  The full text of the Unit’s comments is provided in Appendix D. We did
                  not make any changes to the report as a result of the Unit’s comments.




Minnesota State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-13-00200)            12
                  APPENDIX A
                  Performance Standards for Medicaid Fraud Control Units
                  [59 Fed. Reg. 49080, Sept. 26, 1994]
                  1. 	A Unit will be in conformance with all applicable statutes,
                      regulations and policy transmittals. In meeting this standard, the
                      Unit must meet, but is not limited to, the following requirements:
                       a.	 The Unit professional staff must consist of permanent employees
                           working full-time on Medicaid fraud and patient abuse matters.
                       b.	 The Unit must be separate and distinct from the single State
                           Medicaid agency.
                       c.	 The Unit must have prosecutorial authority or an approved formal
                           procedure for referring cases to a prosecutor.
                       d.	 The Unit must submit annual reports, with appropriate 

                           certifications, on a timely basis.

                       e.	 The Unit must submit quarterly reports on a timely basis.
                       f.	 The Unit must comply with the Americans with Disabilities Act,
                           the Equal Employment opportunity requirements, the Drug Free
                           workplace requirements, Federal lobbying restrictions, and other
                           such rules that are made conditions of the grant.
                  2. 	A Unit should maintain staff levels in accordance with staffing
                      allocations approved in its budget. In meeting this standard, the
                      following performance indicators will be considered:
                       a.	 Does the Unit employ the number of staff that was included in the
                           Unit’s budget as approved by the OIG?
                       b.	 Does the Unit employ the number of attorneys, auditors, and
                           investigators that were approved in the Unit’s budget?
                       c.	 Does the Unit employ a reasonable size of professional staff in
                           relation to the State’s total Medicaid program expenditures?
                       d.	 Are the Unit office locations established on a rational basis and are
                           such locations appropriately staffed?
                  3. 	A Unit should establish policies and procedures for its operations,
                      and maintain appropriate systems for case management and case
                      tracking. In meeting this standard, the following performance
                      indicators will be considered:
                       a.	 Does the Unit have policy and procedure manuals?




Minnesota State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-13-00200)             13
                       b.	 Is an adequate, computerized case management and tracking
                           system in place?
                  4. 	A Unit should take steps to ensure that it maintains an adequate
                      workload through referrals from the single State agency and other
                      sources. In meeting this standard, the following performance
                      indicators will be considered:
                       a.	 Does the Unit work with the single State Medicaid agency to
                           ensure adequate fraud referrals?
                       b.	 Does the Unit work with other agencies to encourage fraud 

                           referrals? 

                       c.	 Does the Unit generate any of its own fraud cases?
                       d.	 Does the Unit ensure that adequate referrals of patient abuse
                           complaints are received from all sources?
                  5. 	A Unit’s case mix, when possible, should cover all significant
                      provider types. In meeting this standard, the following performance
                      indicators will be considered:
                       a.	 Does the Unit seek to have a mix of cases among all types of
                           providers in the State?
                       b.	 Does the Unit seek to have a mix of Medicaid fraud and Medicaid
                           patient abuse cases?
                       c.	 Does the Unit seek to have a mix of cases that reflect the 

                           proportion of Medicaid expenditures for particular provider 

                           groups? 

                       d.	 Are there any special Unit initiatives targeting specific provider
                           types that affect case mix?
                       e.	 Does the Unit consider civil and administrative remedies when
                           appropriate?
                  6. 	A Unit should have a continuous case flow, and cases should be
                      completed in a reasonable time. In meeting this standard, the
                      following performance indicators will be considered:
                       a.	 Is each stage of an investigation and prosecution completed in an
                           appropriate time frame?
                       b.	 Are supervisors approving the opening and closing of 

                           investigations?

                       c.	 Are supervisory reviews conducted periodically and noted in the
                           case file?



Minnesota State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-13-00200)               14
                  7. A Unit should have a process for monitoring the outcome of cases.
                     In meeting this standard, the following performance indicators will be
                     considered:
                       a.	 The number, age, and type of cases in inventory.
                       b.	 The number of referrals to other agencies for prosecution.
                       c.	 The number of arrests and indictments.
                       d.	 The number of convictions.
                       e.	 The amount of overpayments identified.
                       f.	 The amount of fines and restitution ordered.
                       g.	 The amount of civil recoveries.
                       h.	 The numbers of administrative sanctions imposed.
                  8. 	A Unit will cooperate with the OIG and other Federal agencies,
                      whenever appropriate and consistent with its mission, in the
                      investigation and prosecution of health care fraud. In meeting this
                      standard, the following performance indicators will be considered:
                       a.	 Does the Unit communicate effectively with the OIG and other
                           Federal agencies in investigating or prosecuting health care fraud
                           in their State?
                       b.	 Does the Unit provide OIG regional management, and other
                           Federal agencies, where appropriate, with timely information
                           concerning significant actions in all cases being pursued by the
                           Unit?
                       c.	 Does the Unit have an effective procedure for referring cases,
                           when appropriate, to Federal agencies for investigation and other
                           action?
                       d.	 Does the Unit transmit to the OIG, for purposes of program
                           exclusions under section 1128 of the Social Security Act, reports
                           of convictions, and copies of Judgment and Sentence or other
                           acceptable documentation within 30 days or other reasonable time
                           period?
                  9. 	A Unit should make statutory or programmatic recommendations,
                      when necessary, to the State government. In meeting this standard,
                      the following performance indicators will be considered:
                       a.	 Does the Unit recommend amendments to the enforcement
                           provisions of the State’s statutes when necessary and appropriate
                           to do so?



Minnesota State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-13-00200)              15
                       b.	 Does the Unit provide program recommendations to single State
                           agency when appropriate?
                       c.	 Does the Unit monitor actions taken by State legislature or State
                           Medicaid agency in response to recommendations?
                    10. 	A Unit should periodically review its memorandum of
                         understanding (MOU) with the single State Medicaid agency and
                         seek amendments, as necessary, to ensure it reflects current law
                         and practice. In meeting this standard, the following performance
                         indicators will be considered:
                       a.	 Is the MOU more than 5 years old?
                       b.	 Does the MOU meet Federal legal requirements?
                       c.	 Does the MOU address cross-training with the fraud detection staff
                           of the State Medicaid agency?
                       d.	 Does the MOU address the Unit’s responsibility to make program
                           recommendations to the Medicaid agency and monitor actions
                           taken by the Medicaid agency concerning those recommendations?
                  11. 	The Unit director should exercise proper fiscal control over the
                       Unit resources. In meeting this standard, the following performance
                       indicators will be considered:
                       a.	 Does the Unit director receive on a timely basis copies of all fiscal
                           and administrative reports concerning Unit expenditures from the
                           State parent agency?
                       b.	 Does the Unit maintain an equipment inventory?
                       c.	 Does the Unit apply generally accepted accounting principles in its
                           control of Unit funding?
                  12. 	A Unit should maintain an annual training plan for all
                       professional disciplines. In meeting this standard, the following
                       performance indicators will be considered:
                       a.	 Does the Unit have a training plan in place and funds available to
                           fully implement the plan?
                       b.	 Does the Unit have a minimum number of hours training
                           requirement for each professional discipline, and does the staff
                           comply with the requirement?
                       c.	 Are continuing education standards met for professional staff?
                       d.	 Does the training undertaken by staff aid to the mission of the
                           Unit?



Minnesota State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-13-00200)              16
                  APPENDIX B
                  2012 Performance Standards
                  [77 Fed. Reg. 32645, June 1, 2012]
                  1. 	A unit conforms with all applicable statutes, regulations, and
                      policy directives, including:
                       a.	 Section 1903(q) of the Social Security Act, containing the basic
                           requirements for operation of a MFCU;
                       b.	 Regulations for operation of a MFCU contained in 42 CFR part
                           1007;
                       c.	 Grant administration requirements at 45 CFR part 92 and Federal
                           cost principles at 2 CFR part 225;
                       d.	 OIG policy transmittals as maintained on the OIG Web site; and
                       e.	 Terms and conditions of the notice of the grant award.
                  2. 	A Unit maintains reasonable staff levels and office locations in
                      relation to the State’s Medicaid program expenditures and in
                      accordance with staffing allocations approved in its budget.
                       a.	 The Unit employs the number of staff that is included in the Unit’s
                           budget estimate as approved by OIG.
                       b.	 The Unit employs a total number of professional staff that is
                           commensurate with the State’s total Medicaid program
                           expenditures and that enables the Unit to effectively investigate
                           and prosecute (or refer for prosecution) an appropriate volume of
                           case referrals and workload for both Medicaid fraud and patient
                           abuse and neglect.
                       c.	 The Unit employs an appropriate mix and number of attorneys,
                           auditors, investigators, and other professional staff that is both
                           commensurate with the State’s total Medicaid program
                           expenditures and that allows the Unit to effectively investigate and
                           prosecute (or refer for prosecution) an appropriate volume of case
                           referrals and workload for both Medicaid fraud and patient abuse
                           and neglect.
                       d.	 The Unit employs a number of support staff in relation to its
                           overall size that allows the Unit to operate effectively.
                       e.	 To the extent that a Unit maintains multiple office locations, such
                           locations are distributed throughout the State, and are adequately
                           staffed, commensurate with the volume of case referrals and
                           workload for each location.


Minnesota State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-13-00200)             17
                  3. 	A Unit establishes written policies and procedures for its
                      operations and ensures that staff are familiar with, and adhere to,
                      policies and procedures.
                       a.	 The Unit has written guidelines or manuals that contain current
                           policies and procedures, consistent with these performance
                           standards, for the investigation and (for those Units with
                           prosecutorial authority) prosecution of Medicaid fraud and patient
                           abuse and neglect.
                       b.	 The Unit adheres to current policies and procedures in its 

                           operations. 

                       c.	 Procedures include a process for referring cases, when appropriate,
                           to Federal and State agencies. Referrals to State agencies,
                           including the State Medicaid agency, should identify whether
                           further investigation or other administrative action is warranted,
                           such as the collection of overpayments or suspension of payments.
                       d.	 Written guidelines and manuals are readily available to all Unit
                           staff, either online or in hard copy.
                       e.	 Policies and procedures address training standards for Unit 

                           employees. 

                  4. 	A Unit takes steps to maintain an adequate volume and quality of
                      referrals from the State Medicaid agency and other sources.
                       a.	 The Unit takes steps, such as the development of operational
                           protocols, to ensure that the State Medicaid agency, managed care
                           organizations, and other agencies refer to the Unit all suspected
                           provider fraud cases. Consistent with 42 CFR 1007.9(g), the Unit
                           provides timely written notice to the State Medicaid agency when
                           referred cases are accepted or declined for investigation.
                       b.	 The Unit provides periodic feedback to the State Medicaid agency
                           and other referral sources on the adequacy of both the volume and
                           quality of its referrals.
                       c.	 The Unit provides timely information to the State Medicaid or
                           other agency when the Medicaid or other agency requests
                           information on the status of MFCU investigations, including when
                           the Medicaid agency requests quarterly certification pursuant to
                           42 CFR 455.23(d)(3)(ii).
                       d.	 For those States in which the Unit has original jurisdiction to
                           investigate or prosecute patient abuse and neglect cases, the Unit
                           takes steps, such as the development of operational protocols, to
                           ensure that pertinent agencies refer such cases to the Unit,


Minnesota State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-13-00200)               18
                            consistent with patient confidentiality and consent. Pertinent
                            agencies vary by State but may include licensing and certification
                            agencies, the State Long Term Care Ombudsman, and adult
                            protective services offices.
                       e.	 The Unit provides timely information, when requested, to those
                           agencies identified in (D) above regarding the status of referrals.
                       f.	 The Unit takes steps, through public outreach or other means, to
                           encourage the public to refer cases to the Unit.
                  5. 	A Unit takes steps to maintain a continuous case flow and to
                      complete cases in an appropriate timeframe based on the
                      complexity of the cases.
                       a.	 Each stage of an investigation and prosecution is completed in an
                           appropriate timeframe.
                       b.	 Supervisors approve the opening and closing of all investigations
                           and review the progress of cases and take action as necessary to
                           ensure that each stage of an investigation and prosecution is
                           completed in an appropriate timeframe.
                       c.	 Delays to investigations and prosecutions are limited to situations
                           imposed by resource constraints or other exigencies.
                  6. 	A Unit’s case mix, as practicable, covers all significant provider
                      types and includes a balance of fraud and, where appropriate,
                      patient abuse and neglect cases.
                       a.	 The Unit seeks to have a mix of cases from all significant provider
                           types in the State.
                       b.	 For those States that rely substantially on managed care entities for
                           the provision of Medicaid services, the Unit includes a
                           commensurate number of managed care cases in its mix of cases.
                       c.	 The Unit seeks to allocate resources among provider types based
                           on levels of Medicaid expenditures or other risk factors. Special
                           Unit initiatives may focus on specific provider types.
                       d.	 As part of its case mix, the Unit maintains a balance of fraud and
                           patient abuse and neglect cases for those States in which the Unit
                           has original jurisdiction to investigate or prosecute patient abuse
                           and neglect cases.
                       e.	 As part of its case mix, the Unit seeks to maintain, consistent with
                           its legal authorities, a balance of criminal and civil fraud cases.




Minnesota State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-13-00200)                19
                  7. 	A Unit maintains case files in an effective manner and develops a
                      case management system that allows efficient access to case
                      information and other performance data.
                       a.	 Reviews by supervisors are conducted periodically, consistent with
                           MFCU policies and procedures, and are noted in the case file.
                       b.	 Case files include all relevant facts and information and justify the
                           opening and closing of the cases.
                       c.	 Significant documents, such as charging documents and settlement
                           agreements, are included in the file.
                       d.	 Interview summaries are written promptly, as defined by the Unit’s
                           policies and procedures.
                       e.	 The Unit has an information management system that manages and
                           tracks case information from initiation to resolution.
                       f.	 The Unit has an information management system that allows for
                           the monitoring and reporting of case information, including the
                           following:
                                 1.	 The number of cases opened and closed and the reason that
                                     cases are closed.
                                 2.	 The length of time taken to determine whether to open a
                                     case referred by the State Medicaid agency or other
                                     referring source.
                                 3.	 The number, age, and types of cases in the Unit’s
                                     inventory/docket.
                                 4.	 The number of referrals received by the Unit and the
                                     number of referrals by the Unit to other agencies.
                                 5.	 The dollar amount of overpayments identified.
                                 6.	 The number of cases criminally prosecuted by the Unit or
                                     referred to others for prosecution, the number of
                                     individuals or entities charged, and the number of pending
                                     prosecutions.
                                 7.	 The number of criminal convictions and the number of civil
                                     judgments.
                                 8.	 The dollar amount of fines, penalties, and restitution
                                     ordered in a criminal case and the dollar amount of
                                     recoveries and the types of relief obtained through civil
                                     judgments or prefiling settlements.




Minnesota State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-13-00200)                20
                  8. 	A Unit cooperates with OIG and other Federal agencies in the
                      investigation and prosecution of Medicaid and other health care
                      fraud.
                       a.	 The Unit communicates on a regular basis with OIG and other
                           Federal agencies investigating or prosecuting health care fraud in
                           the State.
                       b.	 The Unit cooperates and, as appropriate, coordinates with OIG’s
                           Office of Investigations and other Federal agencies on cases being
                           pursued jointly, cases involving the same suspects or allegations,
                           and cases that have been referred to the Unit by OIG or another
                           Federal agency.
                       c.	 The Unit makes available, to the extent authorized by law and
                           upon request by Federal investigators and prosecutors, all
                           information in its possession concerning provider fraud or fraud in
                           the administration of the Medicaid program.
                       d.	 For cases that require the granting of “extended jurisdiction” to
                           investigate Medicare or other Federal health care fraud, the Unit
                           seeks permission from OIG or other relevant agencies under
                           procedures as set by those agencies.
                       e.	 For cases that have civil fraud potential, the Unit investigates and
                           prosecutes such cases under State authority or refers such cases to
                           OIG or the U.S. Department of Justice.
                       f.	 The Unit transmits to OIG, for purposes of program exclusions
                           under section 1128 of the Social Security Act, all pertinent
                           information on MFCU convictions within 30 days of sentencing,
                           including charging documents, plea agreements, and sentencing
                           orders.
                       g.	 The Unit reports qualifying cases to the Healthcare Integrity &
                           Protection Databank, the National Practitioner Data Bank, or
                           successor data bases.
                  9. 	A Unit makes statutory or programmatic recommendations, when
                      warranted, to the State government.
                       a.	 The Unit, when warranted and appropriate, makes statutory
                           recommendations to the State legislature to improve the operation
                           of the Unit, including amendments to the enforcement provisions
                           of the State code.
                       b.	 The Unit, when warranted and appropriate, makes other regulatory
                           or administrative recommendations regarding program integrity
                           issues to the State Medicaid agency and to other agencies


Minnesota State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-13-00200)              21
                            responsible for Medicaid operations or funding. The Unit monitors
                            actions taken by the State legislature and the State Medicaid or
                            other agencies in response to recommendations.
                    10. 	A Unit periodically reviews its Memorandum of Understanding
                         (MOU) with the State Medicaid agency to ensure that it reflects
                         current practice, policy, and legal requirements.
                       a.	 The MFCU documents that it has reviewed the MOU at least every
                           5 years, and has renegotiated the MOU as necessary, to ensure that
                           it reflects current practice, policy, and legal requirements.
                       b.	 The MOU meets current Federal legal requirements as contained in
                           law or regulation, including 42 CFR 455.21, “Cooperation with
                           State Medicaid fraud control units,” and 42 CFR 455.23,
                           “Suspension of payments in cases of fraud.”
                       c.	 The MOU is consistent with current Federal and State policy,
                           including any policies issued by OIG or the Centers for Medicare
                           & Medicaid Services (CMS).
                       d.	 Consistent with Performance Standard 4, the MOU establishes a
                           process to ensure the receipt of an adequate volume and quality of
                           referrals to the Unit from the State Medicaid agency.
                       e.	 The MOU incorporates by reference the CMS Performance
                           Standard for Referrals of Suspected Fraud from a State Agency to
                           a Medicaid Fraud Control Unit.
                  11. 	A Unit exercises proper fiscal control over Unit resources.
                       a.	 The Unit promptly submits to OIG its preliminary budget
                           estimates, proposed budget, and Federal financial expenditure
                           reports.
                       b.	 The Unit maintains an equipment inventory that is updated 

                           regularly to reflect all property under the Unit’s control. 

                       c.	 The Unit maintains an effective time and attendance system and
                           personnel activity records.
                       d.	 The Unit applies generally accepted accounting principles in its
                           control of Unit funding.
                       e.	 The Unit employs a financial system in compliance with the
                           standards for financial management systems contained in 45 CFR
                           92.20.




Minnesota State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-13-00200)             22
                  12. 	A Unit conducts training that aids in the mission of the Unit.
                       a.	 The Unit maintains a training plan for each professional discipline
                           that includes an annual minimum number of training hours and that
                           is at least as stringent as required for professional certification.
                       b.	 The Unit ensures that professional staff comply with their training
                           plans and maintain records of their staff’s compliance.
                       c.	 Professional certifications are maintained for all staff, including
                           those that fulfill continuing education requirements.
                       d.	 The Unit participates in MFCU related training, including training
                           offered by OIG and other MFCUs, as such training is available and
                           as funding permits.
                       e.	 The Unit participates in cross training with the fraud detection staff
                           of the State Medicaid agency. As part of such training, Unit staff
                           provide training on the elements of successful fraud referrals and
                           receive training on the role and responsibilities of the State
                           Medicaid agency.




Minnesota State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-13-00200)                23
                     APPENDIX C
                     Point Estimates and Confidence Intervals Based on Review of
                     Case Files
                                                                                                95-Percent
                                                                       Sample          Point    Confidence
 Estimate Characteristic                                                                         Interval
                                                                         Size       Estimate
                                                                                               Lower   Upper

 Cases open longer than 30 days and not containing documentation
                                                                            91        58.2%    47.4%   68.5%
 indicating at least one supervisory review

 Cases in which reviewers did not find evidence that the supervisor
                                                                           100        19.0%    11.8%   28.1%
 approved opening case

 Cases in which reviewers did not find evidence that the supervisor
                                                                            70        22.9%    13.7%   34.4%
 approved closing case

Source: OIG analysis of MFCU case files, 2013.




Minnesota State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-13-00200)                            24
                  APPENDIX D
                  Unit Comments




Minnesota State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-13-00200)   25
              Mr. Stuart Wright
              Deputy Inspector General
              February 25.2014
              Page 2


                      Response: As Unit Director, I regularly review the status of all open investigations. In
              the past, I maintained records of my reviews in my office, rather than in the individual case flies.
              I have now begun to place a record of my reviews both in the case files and in my office. I also
              orally approved the opening and closing of all cases. I have now begun to document my
              approval of case openings and closings in the individual case files.

                     Finding: The l;nit stored some case Illes in a location accessible to non-Unit staff.

                      Response: The Unit stored some case tiles in file cabinets that were inaccessible to the
              public but in proximity to other attorneys and professionals within the Ofticc. All attorneys and
              staff in the Office are held to the highest standards of conlidentiality and security, and I am not
              aware of any instance in which a non-Unit attorney or staff member accessed the MFCU file
              c.abinets. Last spring, the Unit moved the contents of the lile cabinets to locked rooms within the
              Office.

                      I thank you again for your office's thorough m1d professional review. If you have any
               questions, plea:;e contact me.


                                                                Sincerely,

                                                                     /S/
                                                                CHUCK ROEHRDANZ
                                                                Director. Medicaid Fraud Control Unit
                                                                Assistant Attorney General
                                                                (651) 757-1299 (Voice)
                                                                (651) 282-SROI (Fax)




Minnesota State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-13-00200)                                    26
                  ACKNOWLEDGMENTS
                  This report was prepared under the direction of Kevin Golladay, Regional
                  Inspector General for Evaluation and Inspections in the Dallas regional
                  office; Blaine Collins, Deputy Regional Inspector General; and
                  Ruth Ann Dorrill, Deputy Regional Inspector General.
                  Lyndsay Patty served as the team leader for this study and Ben Gaddis
                  served as the lead analyst. Office of Investigations staff who provided
                  support include Curt Muller and Jason Weinstock. Central office staff
                  who provided support include Susan Burbach, Kevin Farber,
                  Christine Moritz, Richard Stern, and Sherri Weinstein.




Minnesota State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-13-00200)           27
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
